 

No.

IN THE
SUPREME COURT OF THE UNITED STATES

October Term, 2020

 

LAYW THOMAS, Petitioner
v.

COMMONWEALTH OF KENTUCKY, Respondent

 

PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

 

CERTIFICATE OF SERVICE

 

I, Kathleen Kallaher Schmidt, a member of the Bar of this Court, hereby certify that on this day
the 15th day of January, 2021, the attached Petition for Writ of Certiorari, Motion for Leave to
Proceed In Forma Pauperis, Affidavit of Indigency and Appendix were mailed, first-class postage.
prepaid, to counsel for Respondent, Hon. Todd D. Ferguson, Assistant Attorney General, and to
Hon. Daniel Cameron, Attorney General of the Commonwealth of Kentucky, 1024 Capital Center
Drive, P.O. Box 2000, Frankfort, Kentucky 40602-2000, (502) 696-5342, Counsel for Respondent.

All parties required to be served have been served.
Respectfully Submitted,

bect hl Sopnit

Kathleen Kallaher Schmidt*
Department of Public Advocacy
5 Mill Creek Park, Suite 100
Frankfort, Kentucky 40601
(502) 564-8006 (office)

(S02) 695-6769 (fax)
kathleen.schmidt@ky.gov

*Counsel of Record
